           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    BENEFIT PAYMENTS MANAGED BY
      REPRESENTATIVE PAYEES OF
       CHILDREN IN FOSTER CARE

      June 2010   A-13-07-17137




  EVALUATION
    REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 17, 2010                                                                          Refer To:

To:        Laurie Watkins
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   Benefit Payments Managed by Representative Payees of Children in Foster Care
           (A-13-07-17137)


           OBJECTIVE
           The objective of our review was to determine whether children in the Maryland foster
           care programs had the appropriate representative payees.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted the Social
           Security Administration (SSA) the authority to appoint representative payees to receive
           and manage these beneficiaries’ payments.1

           Payments made to children in foster care are among the most sensitive payments SSA
           makes. According to SSA policy, it is essential that the Agency do all it can to protect
           the rights of children who may not be able to rely on their parents to do so. SSA policy
           further states it is extremely important that SSA follow all legal requirements including
           conducting a complete investigation of the representative payee applicant; using the
           representative payee preference list appropriately to identify when other potential
           representative payees should be considered; and providing due process to the child’s
           parent and/or legal guardian. 2




           1
               The Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               SSA, Program Operations Manual System (POMS), GN 00502.159.
Page 2 - The Commissioner


When a child leaves a representative payee’s custody, changes living arrangements, or
is no longer the representative payee’s responsibility, the representative payee is
required to notify SSA. 3 When a child receiving SSA benefits is placed in the State
foster care system, the State may not know the child is receiving benefits. The State
can determine whether the child is receiving benefits by using SSA’s State Verification
and Exchange System (SVES). SVES provides Maryland and other authorized State
partners with a standardized method of obtaining Social Security benefit information. If
a child is receiving benefits, the State agency can apply to SSA to become the child’s
representative payee. With knowledge the child is in foster care, SSA can determine
who is best suited to be the child’s representative payee.

SSA reports foster care agencies have traditionally been among its most dependable
representative payees. However, their appointment as representative payee is not
automatic. According to SSA, each case should be decided on its own merits. Agency
policy states, “SSA’s primary concern must be to select the representative payee that
will best serve the interest of the child.”4

When a child is removed from parental custody and placed in the custody of a foster
care agency, that agency has legal custody of the child. SSA policy states, if the foster
care agency places the child in a foster care or group living household, the foster care
agency retains legal custody of the child. 5

SSA has a representative payee preference list. Agency policy states the foster care
agency appointed as legal guardian for a child by the court has a much higher standing
on SSA’s representative payee preference list than anyone having a custodial
relationship. In addition, the parent should not be considered a potential representative
payee when he or she is barred from having contact with the child or has his or her
parental rights terminated. 6

In February 2009, we performed a computerized comparison of foster care data
provided by the State of Maryland Department of Human Resources with SSA’s
beneficiary records. Based on this comparison, we identified 952 children in Maryland’s
foster care programs who were receiving SSA benefits managed by representative
payees. 7 We found 402 children had representative payees who were neither foster
care agencies nor the children’s foster care parents. We believe these children’s
benefits may be at risk of misuse. The representative payees for these children were
mothers, fathers, relatives, and others who received and managed about

3
    SSA, POMS, GN 00502.113.
4
    SSA, POMS, GN 00502.130 A.
5
    SSA, POMS, GN 00502.159 B.2.
6
    Id.
7
 These children were in foster care in October 2008. There were 986 records for 952 children because
34 children had concurrent Title II and XVI records.
Page 3 - The Commissioner


$200,000 monthly (about $2.4 million, annually) in benefit payments. In addition, we
found 186 children had representative payees who were their foster care parents.
Since the foster care parents have physical custody of the children, we believe the risk
of misuse is less when these individuals manage the children’s benefits instead of the
parents or other relatives who may have no contact with the children. Our review
focused on children in foster care whose representative payees were other than foster
care agencies or foster care parents. We believe the SSA benefits of these children are
at greater risk of misuse. See Table 1 for details.

Table 1: Children with Representative Payees in Maryland Foster Care Programs
        Type of           Children with     Children with      Children        Total
      SSA Benefit          Foster Care       Foster Care         with        Number of
       Payment             Agency as         Parents as         Other         Children
                             Payee             Payee           Payees
 Title II                       154               105             169            428
 Title XVI                      195               79              216            490
 Both Title II and XVI          15                 2               17             34
 Total                          364               186             402            952

We requested SSA review payees serving all 402 children we identified. Because these
402 children had representative payees who were not the foster care agency or the
custodial foster care parent, we were concerned these children may not have had the
appropriate representative payees to manage their benefit payments. Therefore, we
requested SSA review the representative payees we identified. We provided SSA
information from the 402 children’s records. Of the 402 we provided, SSA selected
50 children in foster care and assessed the suitability of their representative payees. All
50 children were receiving Title II benefits. Two children had the same representative
payee; therefore, SSA reviewed 49 representative payees for these 50 children. See
Appendix A for our Scope and Methodology.

RESULTS OF REVIEW
Of the 50 children’s representative payee suitability assessments conducted, SSA
determined 10 representative payees possibly misused the children’s benefits. We
requested that SSA provide a basis for its decision to allow most of the representative
payees to continue serving the children. However, as of March 2010, SSA had not
provided support for its suitability decisions. Without information detailing the basis for
these decisions, we cannot determine whether the Agency’s assessments of the
representative payees were in accordance with its policies and procedures. In addition,
SSA had only reviewed 50 of the 402 children’s representative payees we identified and
referred to the Agency. The Agency had not yet assessed the suitability of the
remaining 352 children’s representative payees who were receiving benefit payments
Page 4 - The Commissioner


on behalf of children who were in the foster care agency’s custody. Also, as of
February 2010, the Agency had not assessed the suitability of the 186 representative
payees who were foster care parents.

Foster Care Children’s Benefit Payments
SSA conducted suitability assessments for 49 representative payees identified by our
comparison of Maryland foster care data and Agency records. The 49 representative
payees were receiving benefit payments for 50 children in the Maryland foster care
agency’s legal custody (1 of the 49 payees was serving more than 1 child).

SSA reported it found 10 of the representative payees misused (6 payees) or “possibly
misused” (4 payees) a total of about $42,000 of the children’s benefit payments. 8 For
the 10 children involved, as of March 2010, the Agency had (1) suspended benefit
payments for 3 children, and the representative payee was not changed; (2) terminated
benefits for 1 child because of age; (3) allowed the payee to continue to serve 1 child
and receive benefits; and (4) assigned the State foster care agency as the
representative payee for 5 children. Of the six payees who misused benefits, as of
March 2010, the Agency had referred five payees to our Office of Investigations for
appropriate action. 9

The following illustrates a case where SSA determined the representative payee had
misused benefits. A child was determined to have been abused by his mother and her
boyfriend and entered court-ordered foster care. The mother, as the representative
payee, continued collecting about $6,000 of the child’s benefit payments. At our
request, SSA performed a representative payee suitability assessment and determined
the mother misused these benefits. SSA changed the representative payee to the State
agency.

A representative payee must use the benefits received on behalf of a beneficiary only
for the beneficiary’s use and benefit 10 and notify SSA when a child beneficiary is no
longer in his or her care. 11 In addition to not being suitable representative payees, we
believe these individuals may not have notified SSA when the children were removed
from their care and placed in foster care.

SVES is one tool that could possibly prevent children in Maryland foster care programs
from having non-suitable representative payees. If the State does not use SVES to

8
 For three of the six payees that misused children’s benefit payments, on March 9, 2010, Agency staff
stated they are taking action to “re-develop” the assessments of the payees.
9
  As of March 30, 2010, of the 39 payees where SSA concluded no misuse occurred, 7 represented
children no longer receiving benefit payments. SSA’s automated records indicated benefits were
terminated for these seven children because they attained age 18.
10
     SSA, POMS, GN 00602.001.
11
     SSA, POMS, GN 00502.113.
Page 5 - The Commissioner


identify those foster care children receiving benefits from SSA and apply to be the
representative payee, the benefits may continue to be paid to an inappropriate
representative payee and misuse may occur.

The State of Maryland Department of Human Resources may not have determined
whether the children in its custody were receiving SSA benefits through SVES. During
our January 2006 review, Representative Payees Receiving Benefits for Children in
Foster Care, we found the Baltimore City Department of Social Services did not always
apply to serve as representative payee for children in foster care. A Social Services
agency official explained that they did not always use SVES to determine whether
children entering foster care were receiving benefits from SSA.

SSA Representative Payee Suitability Assessments
SSA did not provide us sufficient and reliable information to support its suitability
decisions for the representative payees reviewed. Therefore, we could not
independently determine whether the suitability assessments were conducted in
accordance with Agency policy and supported the decisions made. As a result, we
have no basis to determine whether the Agency’s decision to allow 34 of the
49 representative payees to continue serving as payees was the correct decision. Nor
could we determine why SSA determined five representative payees were unsuitable
but found no misuse.

We requested documentation supporting SSA’s suitability assessments of the
representative payees. The Agency only provided brief summaries of the decisions
made, not the basis for those decisions. SSA staff reported no documentation or further
information for the suitability assessments could be located.

According to Office of Management and Budget (OMB) Circular A-123, the Agency
should have maintained appropriate documentation. 12 Circular A-123 defines
management’s responsibility for internal control and requires that Federal agencies
maintain appropriate documentation and access to that documentation. In addition,
SSA must fully investigate and develop every reasonable allegation of misuse. A formal
misuse determination documenting the facts of each case and the decision about
whether benefits were misused must be prepared. Another claims representative or
higher position must review and approve every formal misuse determination.

We did not independently assess SSA’s suitability decisions. Without information
detailing the basis for these decisions, we question the Agency’s assessments of the
representative payees. We believe such decisions should be completely and
accurately recorded to ensure decisions are based on adequate and appropriate
information. As such, SSA should document the misuse decisions, why the other
representative payees reviewed were found to be suitable, and reasons for finding five
representative payees unsuitable when no misuse was found.

12
     OMB Circular A-123, Management’s Responsibility for Internal Control, II.C.,
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Our comparison of data from the State of Maryland and SSA identified 402 children
whose benefit payments were managed by representative payees who were not the
foster care agency or foster care parent. SSA conducted representative payee
suitability assessments for 50 of the 402 children we identified. Those suitability
assessments determined possible misuse had occurred for 10 children’s benefits.

Based on the information provided, SSA had not yet performed representative payee
suitability assessments for the remaining 352 children we referred. In addition, SSA
had not provided us documentation to support the suitability assessments it performed
for the 50 children. Without appropriate documentation, we cannot determine whether
the correct decision was made in these cases to allow 34 representative payees to
continue to serve the children. As a result, we are concerned that more children’s
benefits may have been used for purposes other than support of the children. We also
do not know whether the Maryland foster care agencies were aware that the foster care
parents were serving as representative payees for an additional 186 children receiving
benefits from SSA.

We recommend SSA:

1. Partner with the State of Maryland Department of Human Resources to increase
   opportunities to share information, such as using SVES to decrease instances of
   benefit payment misuse and non-suitable representative payees managing benefits
   for children in foster care.

2. Document appropriately its suitability assessments of representative payees.

3. Conduct suitability assessments for the representative payees associated with the
   remaining 352 children with payees who are neither the foster care agency nor the
   foster care parents.

4. Ensure the State of Maryland is aware that the foster care parents are serving as
   representative payees for the 186 children we identified.

AGENCY COMMENTS
The Agency agreed with our recommendations. See Appendix B for the full text of the
Agency’s comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgment
                                                                                Appendix A

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed applicable Federal laws and sections of the Social Security
        Administration’s (SSA) regulations, policies, and procedures.

    •   Identified and reviewed prior relevant audits.

    •   Interviewed SSA officials and State of Maryland Department of Human
        Resources officials.

    • Performed a computerized comparison, in February 2009, of foster care data
      provided by the State of Maryland Department of Human Resources with SSA’s
      beneficiary and recipient records. The State data were as of October 2008.
      Based on this comparison, we identified 986 records of children in Maryland’s
      foster care programs receiving SSA payments managed by representative
      payees. 1

    • From this file, we identified 402 children with representative payees other than the
      foster care agency or the foster parent and requested SSA review the
      representative payees serving the children we identified. SSA selected
      information for 50 children that identified 49 representative payees managing
      Title II benefit payments.

    • Requested information from SSA regarding the suitability assessments it
      completed for the 49 representative payees reviewed.

We performed our evaluation between March 2009 and March 2010 in Baltimore,
Maryland. We tested the data obtained for our review and determined them to be
sufficiently reliable to meet our objective. The entities reviewed were SSA field offices
under the Deputy Commissioner for Operations. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.




1
 These children were in foster care as of October 2008. There were 986 records for 952 children—
34 children had both Title II and Title XVI records.
                                                                               Appendix B

Agency Comments
Date:        June 7, 2010
To:          Office of the Inspector General
From:        Deputy Commissioner for Operations
Subject:     Draft Report, “Benefit Payments Managed by Representative Payees of Children in
             Foster Care.” (A-13-07-17137)

Thank you for the opportunity to review and provide comments on the draft report and
recommendations. We have the following comments.

Recommendation 1 – Partner with the State of Maryland Department of Human Resources
to increase opportunities to share information, such as using SVES to decrease instances of
benefit payment misuse and non-suitable representative payees managing benefits for
children in foster care.

The Philadelphia Region has made several contacts with the State of Maryland Department of
Human Resources (DHR), advising them of their ability to use the State Verification and
Exchange System (SVES) to obtain entitlement information on the clients they serve, thus
reducing the risk of benefit payment misuse and having the opportunity to apply to be
representative payee, when appropriate.

Maryland Foster Care is under the jurisdiction of DHR, and has access to SVES information.
For all cases, DHR queries SVES and transfers the information into a system called Maryland
Cares. The Foster Care agency has query access to Maryland Cares and can easily obtain
entitlement information along with payee name and address for their clients.

Regional Data Exchange staff visited DHR in April 2010. In the course of their visit, they asked
DHR leadership to educate caseworkers on how to obtain entitlement information for use in
administering their programs. DHR has, in turn, assured us that they will provide information to
their caseworkers to ensure they are aware of their ability to obtain entitlement and payee
information for their clients. We will re-contact the state in September to verify that the training
was conducted.

Recommendation 2 – Document appropriately the suitability assessments of representative
payees.

The Philadelphia Region previously submitted an annotated spreadsheet that was used to provide
consolidated documentation of the determinations made either to retain or change payees for the
50 sample cases. Subsequently, OIG in the draft report dated May 6, 2010, requested that the
region provide suitability documentation, beyond what was already submitted. It is expected that
these cases along with the additional 352 will be completed by the end of the fiscal year. We
will be forwarding to OIG the revised regional instructions for documenting suitability and will


                                                B-1
look for concurrence to ensure the documentation prescribed by the region satisfies the audit
findings. (Original regional guidance was shared with OIG in August 2009)

Recommendation 3 – Conduct suitability assessments for the representative payees
associated with the remaining 352 children with payees who are neither the foster care
agency nor the foster care parents.

The Philadelphia Region is in the process of conducting suitability assessments, as mentioned
above, for the representative payees associated with the remaining 352 children identified. Of
those, 18 were out of the Philadelphia region and those cases were sent to the servicing regions
for development. We will monitor the cases for completion.

Recommendation 4 – Ensure the State of Maryland is aware that the foster care parents
are serving as representative payees for the 186 children we identified.

The listing of the 186 children for whom the foster care parents are serving as payees will be
shared with Maryland Foster Care. In the cover letter we will explain that we are sharing the
information to ensure they are aware that these foster care parents are representative payees for
children under their jurisdiction. Although not required, Maryland Foster Care may exercise the
option to apply for benefits on behalf of these children. Because there will be PII on the list, the
letter and list will be sent via FED-EX.

Questions concerning these comments may be addressed to Robert Raughley, of the Center for
Program Support in the Philadelphia Region, at 215-597-0738.

Roger McDonnell for Mary Glenn-Croft




                                                B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Shirley Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgment

In addition to those named above:

   Alan Carr, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-07-17137.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
